           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
   CONTRACT WITH BANKERS BUSINESS
      MANAGEMENT SERVICES, INC.,
     CONTRACT NUMBER SS00-08-60085


      March 2010     A-15-09-19148




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                       SOCIAL SECURITY
MEMORANDUM

Date:      March 18, 2010                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Contract with Bankers Business Management
           Services, Inc., Contract Number SS00-08-60085 (A-15-09-19148)


           OBJECTIVE

           Our objectives were to determine whether (1) the contractor was complying with the
           contract terms and applicable regulations and (2) Social Security Administration (SSA)
           personnel were properly monitoring the contract.

           BACKGROUND
           On May 9, 2008, SSA awarded a fixed-price contract to Bankers Business Management
           Services, Inc., (BBMS) for mail services. The BBMS contract was awarded to provide
           all necessary personnel and supervision (unless otherwise furnished by the
           Government) to collect, process, and deliver mail at SSA Headquarters, which includes
           buildings in SSA’s central complex and approximately 10 outlying buildings (for a list of
           the buildings, see Appendix C). SSA’s Office of Publications and Logistics
           Management, Center for Mail, Braille, and Duplicating Operations, is responsible for
           managing and monitoring the BBMS contract.

           We reviewed this contract in support of the Office of the Inspector General Office of
           Audit‘s work related to the security and accuracy of SSA’s mail. Our related work
           includes an April 2007 report, The Social Security Administration's Oversight of the PSI
           Group, Inc., Presort Mail Contract -- Contract #GS-25F-0010M (A-15-07-17032), and a
           January 2008 report, The Social Security Administration's Ability to Reach Individuals
           Using the Social Security Statement (A-15-07-17095). While those audits reviewed
           mail sent from SSA, this audit reviewed the mail being received, processed, and
           distributed within SSA.
Page 2 - The Commissioner


The contract period includes 1 Base Year and 6 Option Years. The contract is now in
Option Year 1. The total performance period of the contract is June 11, 2008 through
June 10, 2015. The total cost to the Government for full performance of this contract
would be about $9.6 million, as follows.

                                     BBMS Mail Service Contract SS00-08-60085
          Contract Years                     Period of Performance                          Total Amount
       Base Year                          June 11, 2008 – June 10, 2009                            $1,351,569.96
       Option Year 1*                     June 11, 2009 – June 10, 2010                             $1,443,810.82
       Option Year 2                      June 11, 2010 – June 10, 2011                             $1,355,809.92
       Option Year 3                      June 11, 2011 – June 10, 2012                             $1,358,025.84
       Option Year 4                      June 11, 2012 – June 10, 2013                             $1,360,308.12
       Option Year 5                      June 11, 2013 – June 10, 2014                             $1,362,658.92
       Option Year 6                      June 11, 2014 – June 10, 2015                             $1,365,080.40
       Total                                                                                         $9,597,263.98
       *A modification took place to ajust for prevailing labor rates provided by the Secretary of Labor.


RESULTS OF REVIEW

We determined that BBMS was performing all tasks required by the contract and
complying with the contract terms and applicable regulations. We also determined that
SSA personnel were properly monitoring the contract. We observed the timeliness of
mail delivery and collection and tested for the accuracy of mail delivery. We found the
mail was delivered and collected timely and accurately with some instances of
misdirected and undelivered mail.

Oversight by SSA Personnel

We found the Contracting Officer’s Technical Representative (COTR) had extensive
knowledge of SSA mail operations. The COTR appropriately monitored BBMS’
performance and reviewed and approved the invoices for payment.

Misdirected Mail

In each mail station, there is a container for submitting misdirected mail. While
observing mail delivery and collection, we attempted to determine the cause of the
misdirection. For most of the misdirected mail we found, the causes were not related to
mailroom staff error. We found mail was usually misdirected because SSA staff did not
notify the mail center when individuals either left the Agency or relocated. 1 In some
cases, outside vendors were submitting unsolicited mail to a former employee’s
address. We observed mail delivery and collection at 18 different sites at SSA’s main
complex and outlying buildings over a 2-week period. We found only one instance

1
 SSA Mail Services Guide - Page 8 - CHANGE OF ADDRESS - Notify the Headquarters mail center
promptly when you or your component moves. According to the Mail and Postage Policy Team when staff
departs SSA service, the component should also notify the mail center.
Page 3 - The Commissioner


where the mail carrier misread the P.O. Box number and placed the mail in the wrong
box. SSA organizations are responsible for alerting the mailroom of changes in
employee locations or status, such as when an employee retires.

Undelivered Mail is Sensitive Waste

During our observations of the work activity in the Annex Building mail center, we noted
that a hamper was loaded with undelivered mail from one distinct P.O. Box, 17717, for
the Office of Income Security Programs (OISP). According to an email received from
OISP, the undelivered mail was not to be returned to OISP but was to be disposed of
by the mailroom contractor staff. The OISP mail was a letter to beneficiaries providing
information on Medicare assistance. The information was generic and contained no
specific wage or benefits information; however, the beneficiary’s name and address
was printed at the top of the first page of the letter. We found the BBMS contract
makes no mention of how BBMS should dispose of undelivered mail. We observed the
disposal of undelivered mail and found that the mailroom staff took the hamper to the
dock where the mail was put in lockable blue bins to be picked up by the SSA
contractor that destroys sensitive waste. We recommend SSA consider modifying the
BBMS contract to include instructions for disposal of undelivered mail.

Safety and Security in the Central Mailroom

    Fire Extinguisher. We reviewed the safety and security of the mailroom work area
in the Annex building and found there was no sign to clearly indicate where the fire
extinguisher was located. 2 The fire extinguisher was obscured by work cubicles, which
made it difficult to locate. Additionally, we spoke with the contract manager who
supervised the staff in the mailroom and found that none of the BBMS staff had training
                                      3
on how to use the fire extinguisher. The COTR informed us he was trained to use the
fire extinguisher; however, his normal work space was not in the mailroom. We believe
a large, raised sign should be placed on the wall above the fire extinguisher to clearly
indicate its location. Additionally, select BBMS staff should be trained on how to use
the fire extinguisher in the event of an emergency.




2
  Administrative Instructions Manual System (AIMS), General Administration Manual (GAM) Chapter 13
Health & Safety Management – Attachment B Fire Extinguishers, G – Appropriate marking shall be given
to indicate extinguisher location when it may be obstructed or obscured from view (for example, red band,
decal, sign, etc).
3
 AIMS/GAM Chapter 13 Health & Safety Management – Attachment B Fire Extinguishers,
B – Designated personnel shall be given basic training in the use of fire extinguishers.
Page 4 - The Commissioner


    Primary Service Door Malfunctioned and Did Not Lock. SSA rules restrict
                                                                                  4
access to the mailroom and require that doors remain locked when not in use. We
observed that the side door used for mail staff to enter and exit the work area for
deliveries and collections malfunctioned, would not lock automatically, and remained
open. We found this was an ongoing problem. According to the COTR and the BBMS
mail manager, the door was repaired several times for a similar problem but continued
to malfunction. When the door is left open, mail is vulnerable to theft or destruction. In
addition to mail activity, the mailroom is used to store case folders awaiting pickup. We
recommend SSA determine whether a repair order can be initiated to fix the door or a
new door would be a better solution.

OIG Mail Service Questionnaire

We submitted a questionnaire on mail service to 13 SSA executive officers who worked
in the SSA main complex or outlying buildings (see Appendix D). We received
responses from all. Their responses are summarized below.

    Question 1: 10 of the 13 who received our questionnaire answered the mail was
“always” picked-up on time on a daily basis, and 3 responders indicated “almost
always.”

    Question 2: 10 of the 13 who received our questionnaire answered the mail was
“always” delivered timely on a daily basis, and 3 responders indicated “almost always.”

    Question 3: 1 responder indicated “yes” that they had concerns of whether mail
sent from their component would arrive at the intended destination, while the remaining
12 indicated “no.” The responder who indicated “yes” stated they had a small number
of staff in an outlying building where there had been instances of mail delivered as long
as 10 days after the postmark. Our review of the mailroom revealed that date-stamped
mail was delivered the same day; however, there were instances where mail was
returned and had to be delivered to a different location. This can happen when mail is
not addressed properly. Since this component has more than one unit in the
Woodlawn complex, the mail went to one location when it should have gone to another.

    Question 4: 10 respondents indicated “no” when asked about receiving mail not
addressed to the component. For the three who responded “yes,” the responses
indicated that mail was sometimes misdirected. A responder stated that sometimes
SSA staff has retired or moved to another unit and their old location continues to
receive mail addressed to them. BBMS staff told us changing an address in their
automated mail address system 5 can be completed quickly; however, the SSA units

4
  AIMS, Materiel Resources Manual, Chapter 2, instruction 8, Management Policies for Security of
Incoming and Outgoing Mail, 02.08.06 Restricted Access. Access to SSA mail centers and field/hearing
office mail areas must be strictly limited to mail center staff or those employees designated by
management as having mail handling responsibilities.
5
    Office of Publications and Logistics Management Automated Distribution Management System.
Page 5 - The Commissioner


must inform BBMS of staff who move or retire. If they are not informed of a staff
change, BBMS, in many instances, does not have that information, and the mail will go
to the last known address.

   Question 5: Concerning the question whether any issues or areas require
improvement regarding mail delivery and collection service, one response suggested
employee listings should be improved but indicated this is more of an SSA issue, since
the Agency should provide the latest employee location listing to BBMS.

We found the majority of the offices that responded to our questionnaire believed there
was no problem with BBMS’ timeliness or accuracy of mail delivery and collection.
Most of the components’ concerns were focused on the delivery of mail to the intended
destination. The questionnaire results are consistent with what we observed during our
audit work, in that we found very few errors.

Our observations indicated most problems were envelope labels with inaccurate
addresses, which BBMS cannot control. We found one instance of an inaccurate
delivery made by BBMS staff. When mail is returned because of an incorrect address,
the BBMS employees refer the mail to their mail examining unit, which has computer
access to SSA employee locations. In some instances, BBMS staff are permitted to
open the mail to ascertain the proper delivery location of the mail document. If a
problem persists in their attempt to identify an employee’s location, the BBMS staff will
contact the employee’s work area to ascertain the correct location.

CONCLUSION AND RECOMMENDATIONS

We determined that BBMS was complying with the contract terms and applicable
regulations. We also determined that SSA personnel were properly monitoring the
contract. We did identify areas where improvements can be made.

We recommend SSA:
1. Modify the contract to include procedures for the disposal of undeliverable mail.
2. Install a large, elevated sign to clearly identify the fire extinguisher’s location.
   Additionally, train select BBMS staff on how to use the fire extinguisher.
3. Repair the malfunctioning door lock or determine whether a new door would be a
   better solution.
AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix E).




                                                   Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Social Security Administration Occupied Buildings: Main Complex and
             Outlying Areas
APPENDIX D – Questionnaire Submitted to Executive Officers at the Woodlawn
             Location
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
AIMS   Administrative Instructions Manual System
BBMS   Bankers Business Management Services, Inc.
CO     Contracting Officer
COTR   Contracting Officer’s Technical Representative
GAM    General Administration Manual
OAG    Office of Acquisition and Grants
OISP   Office of Income Security Programs
SSA    Social Security Administration
                                                                    Appendix B

Scope and Methodology
To accomplish our objectives, we:

    Reviewed the Bankers Business Management Services, Inc., (BBMS) contract
     SS00-08-60085, which covers the Base Year and Option Year 1 (Base Year
     June 11, 2008 through June 10, 2009, and Option Year 1 June 11, 2009 through
     June 10, 2010).

    Prepared a questionnaire requesting information on the Social Security
     Administration’s (SSA) satisfaction with BBMS’ mail services. The questionnaire
     was distributed to each executive officer for those components that relied on the
     mail services in the Headquarters complex and local outlying buildings.

    Reviewed the applicable Federal Acquisition Regulations, as stated in the
     contract, SSA’s Acquisitions Regulations, SSA’s Administrative Instructions
     Manual System, and the Code of Federal Regulations.

    Reviewed the process of the Office of Acquisition and Grants (OAG) contracting
     officer (CO); Office of Publications, and Logistics Management, Center for Mail,
     Braille, and Duplicating Operations; Contracting Officer’s Technical
     Representative (COTR); BBMS mailroom and complex and outlying buildings
     mail services; and the SSA finance office staffs. We tested the processes to
     determine whether they were relevant, operating, and effective.

    Reviewed the listing of SSA-occupied buildings: SSA main complex and outlying
     areas, including delivery schedules.

    Reviewed the BBMS contract employee roster and verified the staff and
     identification badges.

    Reviewed the BBMS contract employees’ suitability letters and ascertained they
     were acceptable.

    Observed, during a 2-week period, the delivery and collection of mail within the
     SSA main complex buildings and the outlying buildings. Checked the timeliness
     and accuracy of delivery and collection.

    Observed mailroom work activity. Determined whether work was in-process and
     assessed staffing levels.




                                         B-1
       Observed management’s use of a quality assurance process and determined
        that it was operating to ensure mail was timely collected, processed, and
        delivered, as required by the contract.

       Observed whether contract workers received training, including learning what
        actions to take in an emergency, and the protection of private information.

       Interviewed BBMS and SSA staff.

       Evaluated COTR and CO oversight of BBMS work to ensure the contractor’s
        compliance with the contract, which included the COTR examining and
        approving of BBMS’ invoices.

       Reviewed supporting documentation of the COTR’s review and approval of the
        contractor’s invoices and the payments made by SSA’s finance office. Tested
                                                    1
        for compliance with the Prompt Payment Act.

       Obtained and reviewed the responses from the questionnaire distributed to
        components that use BBMS mail services in the Headquarters complex and local
        outlying buildings.

We performed our audit at SSA Headquarters in Baltimore, Maryland, from May
through September 2009. We found the data used for this audit were sufficiently
reliable to meet our objectives. The entities audited were OAG and the Office of
Publications and Logistics Management under the Deputy Commissioner for Budget,
Finance and Management.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




1
    Public Law Number 97-177.


                                           B-2
                                                                   Appendix C

Social Security Administration Occupied
Buildings: Main Complex and Outlying Areas
The Social Security Administration (SSA) Headquarters Complex is located at
6401 Security Boulevard, Baltimore, Maryland, 21235-6401 and includes the following
buildings: Altmeyer, Annex, East High Rise, East Low Rise, Operations, West High
Rise, and West Low Rise. The Complex also includes the following outlying buildings.

    Boulevard Place Building            Dunleavy Building

    Lord Baltimore Building I           Meadows East Building

    National Computer Center            Oak Meadows Building

    Rolling Road Commerce Center        Social Security Child Care Center

    Supply Building                     Windsor Park Building
                                                                             Appendix D

Questionnaire Submitted to Executive Officers
at the Woodlawn Location
                                          Questionnaire
                       Evaluation of Mail Delivery and Collection Services
                               at SSA Headquarters Components

We are conducting a performance review of the Social Security Administration (SSA)
contractor (Bankers Business Management Services, Inc. [BBMS]) who is responsible
for mail delivery and collection within SSA’s central complex (7 buildings) and
approximately 10 outlying buildings. 1 The purpose of this questionnaire is to gather
information to assess the service received by SSA components from BBMS.

Please review and respond to the questions below.

Please identify your component below:

Component___________________________

Please mark one box below for each set of characteristics.

         Is your mail being picked-up on time on a daily basis?

              Always         Almost      Sometimes          Almost   Never
                             Always                         Never


          If you have selected Sometimes, Almost Never, or Never, please provide an
          explanation below of the conditions.

         Is mail delivered to you timely on a daily basis?

              Always         Almost      Sometimes          Almost   Never
                             Always                         Never


          If you have selected Sometimes, Almost Never, or Never, please provide an
          explanation below of the conditions.


1
    For information on locations, see Appendix C of this report.



                                                      D-1
   Do you have any concerns of whether mail sent from your component will arrive
    at the intended destination?

          Yes______

          No _______

    If you answered Yes, please explain your concerns below.

   Do you have any concerns of receiving mail not addressed to your component?

          Yes______

          No _______

    If you answered Yes, please explain your concerns below

   Are there any issues or areas that you believe require improvement regarding
    your component’s mail delivery and collection services?




                                      D-2
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      February 23, 2010                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Dean Landis for
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Contract with Bankers Business Management Services, Inc., Contract Number SS00-08-60085”
           (A-15-09-19148)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S CONTRACT WITH
BANKERS BUSINESS MANAGEMENT SERVICES, INC., CONTRACT NUMBER
SS00-08-60085” (A-15-09-19148)


Our responses to the specific recommendations are below.

Recommendation 1

Modify the contract to include procedures for the disposal of undeliverable mail.

Comment

We agree. We will modify our contract with Bankers Business Management Services, Inc. to
include current agency procedures for the disposal of undeliverable mail.

Recommendation 2

Install a large, elevated sign to clearly identify the fire extinguisher’s location. Additionally,
train select Bankers Business Management Services, Inc. staff on how to use the fire
extinguisher.

Comment

We agree. On January 29, 2010, we installed large and elevated signs to identify the location of
the fire extinguisher. In addition, we are in the process of determining the proper procedure for
obtaining fire extinguisher training for contract employees.

Recommendation 3

Repair the malfunctioning door lock or determine whether a new door would be a better solution.

Comment

We agree. By the end of February 2010, we will either repair the malfunctioning door lock or
install a new door.




                                                  E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager

Acknowledgments

In addition to those named above:

   Sig Wisowaty, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-19148.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
